      National Science Foundation   420 1Wilson Boulevard        Arlington, Virginia 22230
                               Office of the Inspector General




MEMORANDUM


DATE:                   March 17,2011

TO:                     Dr. Subra Suresh


FROM:                   Dr. Brett M. B


SUBJECT:                Audit of NSFS Actions to Improve Workforce Management and tlze
                        Work Environment for Employees, Report No. 11-02-006


Attached please find the final report of our audit of NSF's workforce management. We
have included NSF's response as an appendix to the final report.

OMB Circular A-50 requires NSF to prepare a time-phased corrective action plan to
address the report recommendations. Please furnish our office with a copy of this
corrective action plan no later than May 16,2010.

We appreciate the courtesies and assistance provided by so many NSF staff during the
audit. If you have any questions, please contact Karen Scott, Director Audit Services, at
(703) 292-7966.



cc:      Allison Lerner
         Cora B. Marrett
         Clifford Gabriel
         Any Northcutt
         Judith Sunley
         Icareil Scott
         Marie Maguire
         Susan Camohan
         Kelly Stefanko
         Fara Damelin
 Audit of NSF’s Actions to Improve
Workforce Management and the Work
    Environment for Employees



      National Science Foundation
      Office of Inspector General



            March 17, 2011
             OIG 11-2-006
Table of Contents

Introduction                                                               1

Results of Audit                                                           1

NSF Has Not Effectively Addressed Recommendations for Workforce            2
Management Change

NSF Lacks an Effective Process to Implement Workforce Management           6
Change

Elements of an Effective Decision-Making Process                           7

Impact of NSF’s Insufficient Action to Implement Needed Workforce Change   8

Conclusion and Recommendation                                              9

Summary of Agency Response and OIG Comments                                10

Appendices

   Appendix A: Agency’s Response                                           11

   Appendix B: Objective, Scope, and Methodology                           15
Introduction
Mission of the National Science Foundation

The National Science Foundation is an independent Federal agency whose mission is
“to promote the progress of science; to advance the national health, prosperity, and
welfare; to secure the national defense; and for other purposes.” To support this
mission, NSF funds approximately 20 percent of all Federally-supported basic research
conducted at the nation’s colleges and universities, primarily through grants and
cooperative agreements. To accomplish this mission, NSF seeks to maintain a world-
class staff of scientists, engineers, and educators who bring current knowledge, insight,
and cutting-edge perspectives to the scientific and engineering research and education
funded by NSF. In support of its mission, NSF identified performing as a model agency
as a strategic goal in its new fiscal year (FY) 2011-2016 draft strategic plan and has
stated that it is working to make itself a model agency in human capital management.

Congressional Charge

The Senate Committee on Appropriations report language for the Departments of
Commerce and Justice, and Science, and Related Agencies Appropriations Bill for FY
2011, stated that, “the OIG shall deliver to the Committee a report analyzing NSF
actions to improve workforce management and the work environment for employees,
including an evaluation of any performance management framework for individuals
serving under the Intergovernmental Personnel Act,” (IPAs). In addition, the report also
stated that “managers need to ensure that the workplace meets the highest standards
as well and is free from harassment and misconduct.” This Committee has also
expressed concern about the impact of IPAs on NSF’s workplace environment,
specifically whether IPAs have the tools to be managers.

Results of Audit
Congress, OPM, the OIG, and NSF management and staff have all expressed concerns
about workforce management and the work environment at NSF in recent years. NSF’s
response to these concerns generally has been to assemble working groups of NSF
staff to assess the issues and recommend needed corrective action. These groups
have given thoughtful and thorough attention to the issues they were charged with
considering, and their analysis has resulted in many recommendations for change.

However, NSF does not have an effective process for implementing the workforce
management changes called for in these recommendations. The agency’s process for
addressing workforce management change is informal, undocumented, and ad-hoc.
Specifically, NSF senior management has not accepted or rejected; prioritized; tracked;
managed; or implemented the bulk of the recommendations made in this area. NSF’s
workforce management change process also suffers because it lacks a champion with
both the time and authority to lead in this area. As a result, although NSF has devoted
considerable study and discussion to identifying needed improvements, at the time of
                                           1
our audit, it had completed action on only 11 of 102 recommendations. It is important to
note that in some cases, more than one source made the same or similar
recommendation and that some overlap ones made years prior to the efforts we
examined.

NSF’s failure to make decisions to improve workforce management has led to continued
attention from Congress and may have contributed to a decline in employee
satisfaction. We recognize that it is not reasonable to expect NSF to implement 102
recommendations simultaneously, and we are not saying that it should have done so.
However, it is reasonable to expect NSF management to set priorities and milestones
and implement an action plan in a structured approach to address workforce issues. In
order to ensure needed workforce management change, NSF must develop an
effective, structured, and documented process to ensure that timely decisions are made
and that timely action is taken to implement those decisions.


NSF Has Not Effectively Addressed Recommendations for
Workforce Management Change
During the period from September 2009 through August 2010, internal and external
efforts to identify opportunities for improvements in NSF’s workforce management and
work environment culminated in NSF management having 102 recommendations
relevant to our audit objectives to consider. These recommendations came from the
draft Employee Action Agenda, three NSF working groups, OPM’s review of the
agency’s human capital management system and the OIG’s March 2010 audit of NSF’s
rotating director model. Based on our assessment, we found that NSF senior managers
had not accepted or rejected; prioritized; tracked; managed or implemented the bulk of
the recommendations made during the period we assessed. As a result, although NSF
and other stakeholders had devoted considerable time and effort to identifying needed
improvements, as shown in the table below, NSF had completed action on only 11 of
the 102 recommendations as of December 1, 2010.




                                           2
Workforce Management Recommendations for Change that NSF has Implemented
                                                                 Number of
                                                             recommendations         Recommendations
  Source of recommendations             Number of           related to executive-     implemented –
                                                                            1
         (Date issued)               recommendations             level IPAs           (as of 12/1/10)
Draft Employee Action Agenda               31                         8                      1
(Sept 2009)
Employee Satisfaction and                    6                       1                        0
Wellness Working Group report
(Sept 2009)
Human Resources Policies                     30                      9                        0
Working Group report (Aug
2010)
OIG Rotators report (Mar 2010)                2                      2                        0
Hiring Reform Action Plan                    24                      0                        9
(2010)
OPM report (IPA-related only)                 9                      9                        1
(Aug 2010)
Total                                       102                      29                       11


Our assessment of recommendations made by these groups is described below.

Draft Employee Action Agenda

The draft Employee Action Agenda was developed in 2009 by the former Director of the
Office of Information and Resource Management (OIRM), in response to a request from
the NSF Director for “something actionable” to demonstrate that the agency was taking
Congressional concerns about workforce management issues seriously. It contained 31
recommendations,
                                              In September 2009, the Acting Deputy
Director provided the draft agenda to executive-level officials within NSF, the OIG, the
National Science Board Office, and the President, Local 3403, American Federation of
Government Employees, AFL/CIO for comment. NSF has completed action on one
recommendation related to implementing an electronic Official Personnel Folder system
(which OPM has mandated for all executive branch agencies), but, as of December 1,
2010, the agency had not formally adopted the Agenda.

Employee Satisfaction and Wellness Working Group Report

The Acting Deputy Director established the Employee Satisfaction and Wellness
working group to respond to OPM’s requirement for an agency action plan for improving
employee satisfaction and wellness in areas where the agency had received low scores
in OPM’s government-wide employee satisfaction survey. The working group issued a
report to the Acting Deputy Director in September 2009, which contained six
recommendations. NSF used this report as the basis for the action plan it submitted to

1
  Of the 102 recommendations, we further stratified them by judgmentally identifying recommendations
that we believe directly relate to IPA assignees in executive-level positions and tools for IPAs to manage
in the Federal government.
                                                     3
both OPM and OMB (in September 2009). NSF provided the working group with a copy
of the action plan that NSF had submitted, but otherwise, the group did not receive
formal feedback from the Office of the Director that any recommendations have been
“agreed upon.” However, the working group felt that the use of its recommendations in
NSF’s formal action plan to OPM and OMB was a very strong indication from
management that nearly all of its recommendations had, in fact, been agreed upon.

Subsequently, the Acting Deputy Director requested that the working group reconvene
to develop an implementation plan, but this group became aware that other NSF
working groups were discussing the same or very similar issues. Further, because the
working group’s co-chairs are Deputy Assistant Directors and Executive Officers
(DADEOs), they participate in DADEO meetings. One of the co-chairs noted that this
DADEO group served as the focal point for coordinating the recommendations, and
through DADEO meetings, learned that the Acting Deputy Director had charged the
Interim Division Director of Human Resource Management (HRM) with developing a
comprehensive implementation plan that included addressing the Employee Satisfaction
and Wellness working group’s recommendations. Therefore, to avoid what appeared to
be duplicate efforts, the working group did not complete an implementation plan. As of
December 1, 2010, NSF had not completed action on any of the group’s six
recommendations.

Human Resources Policies Working Group Report

The Acting Deputy Director set up the Human Resources Policies working group based
on concerns raised by the Employee Satisfaction and Wellness group, the OIG, and
Congress. This group met over a period of eight months and issued a report in August
2010 that contained 30 recommendations. Nine of these recommendations related to
NSF’s reliance on IPAs in executive-leadership positions.

The Acting Deputy Director met with the Human Resources Policies working group on
October 4, 2010, and suggested that the group discuss its report and other reports that
include recommendations related to human resources policies and management
practices with the Interim Division Director of HRM. This meeting took place on October
21, 2010, and subsequently, on November 17, 2010, this group suggested six priority
actions which NSF could start implementing immediately with the potential to have a
significant positive impact. For example, the group recommended that NSF require new
executives to participate in a program to orient them to NSF. The Interim Division
Director of HRM responded to the working group that she could not or should not
implement these actions unilaterally, but that she needed to have agency “buy in”
before taking action. Thus, as of December 1, 2010, NSF has not communicated the
working group’s recommendations to NSF staff, nor has it implemented or prioritized
any of these 30 recommendations, which includes the working group’s 6 priority actions.
One working group member mentioned that NSF’s search for the balance between
thoughtful reflection and timely change was frustrating.




                                          4
OIG Audit Report on the NSF Rotating Director Model

The OIG’s March 2010 audit, which was conducted in response to a request from the
Senate Appropriations Committee, made two recommendations, both of which pertain
to IPAs. To address the OIG’s first recommendation pertaining to performance
management for IPAs, NSF issued a November 2010 memo requiring that executive-
level IPAs have performance plans in place by the end of 2010. Performance plans
provide the basis for holding staff accountable for work assignments and
responsibilities, and document the standards for evaluating performance. NSF also
plans to include program-director level IPAs in its performance management system by
June 2011. Including IPAs in NSF’s performance management system will also
address similar recommendations made in the draft Employee Action Agenda, the
Human Resources Policies working group report, and the OPM Human Capital
Management Evaluation Report.

In response to the audit’s second recommendation pertaining to integrating executive-
level IPAs into the Federal government, NSF stated that it was continuing to develop its
New Executive Transition Program, which will include a 2-3 day orientation and
management development seminar for all new executives. The orientation program
was originally expected to start in October 2010, but is now scheduled for
implementation in March 2011. In 2009/2010, NSF offered eight courses in a
management curriculum and plans to offer five additional courses in 2011. Although
making these courses available to its executives is a step in the right direction, NSF
does not presently require the executives to take this management training. As such,
NSF has no assurance that its new executive-level IPAs are receiving the training
needed to integrate them into the Federal government.

Hiring Reform Action Plan

NSF established a Hiring Reform SWAT team in response to a June 18, 2009, OPM
memo that prepared Federal agencies to overhaul the way they recruit and hire
employees to make it less complex for applicants to apply for Federal jobs. The group
produced a FY 2010-2011 action plan that includes 24 recommendations. NSF
approved the action plan and has posted it on the NSF website. NSF stated that action
on most items was underway as of December 1, 2010, and provided documentation that
it had implemented 9 of the 24 recommendations.

OPM Human Capital Management Evaluation Report

OPM conducted an evaluation of NSF’s human capital management system and issued
a report to the agency on August 3, 2010. The report contained 37 required actions and
33 recommended actions to strengthen the overall effectiveness of NSF’s human capital
management. 2 In its October 4, 2010, response, NSF stated that it accepted the

2
  We reviewed nine recommendations from the report that we identified as being directly related to NSF’s
use of IPAs in executive-level positions, including recommendations that NSF study the effectiveness of
its current organizational structure and the impact of this structure on the agency’s mission and that NSF
establish a comprehensive management succession program to train and develop managers.
                                                    5
report’s recommendations and that it would take action to address them. However,
NSF informed us that it considers its response to OPM to be “preliminary” and that NSF
is waiting for feedback from OPM before moving forward to act on recommendations.
NSF also stated that it is considering some of the OPM recommendations for inclusion
in the comprehensive implementation plan being developed by the Interim Division
Director of HRM. As of December 1, 2010, NSF stated that it had completed action on
one recommendation by providing a range of training and development activities in
support of mission accomplishment.

NSF Lacks an Effective Process to Implement Workforce
Management Change
During the period we reviewed, NSF attempted to manage workforce change by tasking
staff-led working groups with assessing specific issues and making recommendations
for improvements. Such a process can only drive real change if a mechanism exists to
evaluate the resulting recommendations and identify those that should be implemented.
Based on our assessment, we found that NSF had no overarching process for
responding to these workforce-related recommendations. Specifically, the Foundation
has no formal, documented process for: 1) examining the various recommendations to
identify and prioritize actions that would solve the most pressing problems; 2)
developing an implementation plan (with milestones and timelines) for priority actions;
and 3) tasking a specific manager or managers with responsibility for seeing the priority
actions through to completion. As a result, NSF’s approach to addressing workforce
issues has not yielded significant results.

NSF’s workforce management change process also suffers because it lacks a
champion with both the time and authority to lead in this area. NSF’s current process
for managing workforce change is led by its Acting Deputy Director, who has stated to
both NSF staff and to OIG auditors that she is in charge of setting priorities and making
decisions on recommendations for workforce improvements. In an October 2010 memo
to OPM, the Acting Deputy Director stated, “[a]s the NSF Acting Director and Chief
Operating Officer, I am committed to holding managers and human resource officers
accountable for meeting their human capital management responsibilities.” Given the
considerable responsibilities of the Deputy Director position, it may not be feasible for
the Acting Deputy Director to devote the time and attention necessary to ensure that
progress is made in addressing workforce management issues. Focusing on human
capital management issues should be the primary responsibility of the Chief Human
Capital Officer (CHCO), and it would thus seem logical for that person to play a leading
role in this area. Based on our audit work, however, it appears that neither the previous
nor the current CHCO is sufficiently empowered to implement workforce management
change.



            NSF was “behind schedule” in addressing workforce issues identified by
Congress because of the approach it was using of setting up working groups to develop
                                           6
recommendations which then must be prioritized.                          most of the
significant actions recommended could not be undertaken without approval from the
Office of the Director.                 at the request of the former NSF Director, he
developed a framework of workforce management related actions, but that NSF
leadership would not commit to moving forward with it as a means of addressing its
workforce related issues. He stated that NSF needed to “pick a direction to move in”
and take action.

With the departure of the former OIRM Director, NSF moved the CHCO responsibilities
down to the Division Director of HRM, one of the OIRM Director’s subordinates. That
position has been filled on an interim basis since October 2010. Since her appointment,
the Interim Division Director has been developing a plan of action for NSF to address its
workforce related issues. She has been organizing recommendations into a framework
and has identified several areas (such as leadership and knowledge management) as
key areas for consideration. She has also identified several NSF-wide activities that
she characterized as “Making a Beginning” in FY 2011. However, the framework lacks
critical elements such as milestones, completion dates, and individuals responsible for
leading the identified activities. In addition, the Interim Division Director told auditors
that she must wait on approval from the Assistant Directors (ADs) and Deputy Assistant
Directors/Executive Officers (DADEOs) before moving forward on workforce
management recommendations.

While it is important to work with stakeholders such as ADs and DADEOs in developing
a plan for workforce management change, the person leading that change should have
the authority to move the process along even if the actions being contemplated are not
universally embraced. Absent such authority, it is far too easy for the “paralysis of
analysis” to set in and inhibit much-needed progress. If NSF wishes to see change
occur, then it must ensure that the person responsible for leading that change, whether
it is the NSF Deputy Director or the CHCO, has sufficient time to devote to the process
and sufficient authority to see it through.

Elements of an Effective Decision-Making Process
In our view, an effective process would entail that senior management: 1) identify
whether it accepts or rejects each recommendation in a timely manner; 2) prioritize
action on accepted recommendations and track such action; 3) authorize specific
individuals to implement accepted actions; and 4) hold individuals responsible and
accountable for implementing accepted recommendations.

Basic principles of project management illustrate the benefits of a structured approach
to bring about change. Project management emphasizes seeing a task through to
completion by successfully taking it from start to finish. Key areas of effective project
management include developing and communicating a plan, determining roles and
responsibilities, creating a realistic schedule, preparing for change, monitoring and
reporting on status, and closing out the project. These principles are very similar to the
process NSF used to reform its audit resolution process.

                                            7
NSF management utilized a structured process to implement change in reforming the
audit resolution process in response to recommendations in an OIG audit. This process
consisted of clear top level support and documented objectives directly from the NSF
Acting Deputy Director and the Inspector General. The written charge established
milestones and outcomes, and included specific duties and responsible individuals who
were authorized to make decisions and meet deadlines. We highlight this example
because, while it involved a more focused issue, the structured process used by NSF
for reforming audit resolution incorporated the elements of an effective process and
resulted in significant change. The result was clear – change occurred in the form of a
new policy and revisions in operational practices, which continue to be monitored by
NSF management and the OIG.

Impact of NSF’s Insufficient Action to Implement Needed
Workforce Change
Because NSF has not made needed improvements in workforce management, it has
been subject to increased attention from Congress, OPM, and the OIG. The lack of
significant change may have also contributed to a decline in employee satisfaction at
NSF.

NSF’s success is ultimately dependent upon the success of the people who work for the
agency. When employees have a high level of job satisfaction, they are more likely to
be engaged in their work. Thus, employee satisfaction is directly linked to achieving the
agency’s mission and performance results. In addition, employee satisfaction is a
necessary ingredient in attracting top talent; NSF’s human capital vision is to, “attract,
develop, and retain a diverse, world-class workforce that is continually learning and
expanding its capacity to shape the agency’s future.”

Employee concerns about workforce management and the work environment are
reflected in recent surveys reporting a decline of employee satisfaction at NSF. NSF
dropped from being ranked fifth among small agencies in 2009 to being ranked
thirteenth among the small agencies in 2010, based on data from the Employee
Viewpoint Survey conducted by the Partnership for Public Service in the Best Places to
Work rankings. NSF’s positive response rate in the 2010 employee survey dropped
slightly in almost all questions and significantly in some. Specifically, positive response
rates on promoting diversity and working well with diverse teams dropped from over 70
percent to just over 60 percent. Additionally, the positive response rate on perceptions
that awards in work units depend on how well employees perform their job duties
dropped from 60 percent to 49 percent.

It is important to note that this decline occurred after NSF had established an employee
satisfaction and wellness working group specifically to improve on low scoring items in
the 2008 survey. As noted on page 4, that group made six recommendations to NSF
management, none of which has been completed. Not only NSF did fail to reach its
improvement targets on the 2010 survey, its scores in the areas targeted for
improvement dropped.
                                            8
Failure to timely respond to or implement recommendations developed by working
groups also undermines the utility of such groups, as participants become aware that
management is not acting on their recommendations or even communicating back
decisions made with respect to their recommendations. As previously noted, some of
the NSF working groups whose efforts we reviewed are grappling with issues that had
already been addressed by previous efforts.

For example, 29 recommendations made by the various efforts we examined were
directed at IPAs, who fill 27 percent 3 of NSF’s executive-level science positions and
who may not have Federal government experience. Some of these recommendations,
such as those to increase management training and development opportunities for
executive-level IPAs, were made by more than one of the groups and overlap
recommendations made years prior to the efforts we examined. For example, a 2004
report of the National Academy of Public Administration, conducted in response to a
Congressional request, recommended that the NSF Director establish and support an
ongoing management and executive-level knowledge sharing program. Further, a 2007
internal NSF report by NSF’s Executive Resources Board recommended that the
agency complete the development of a comprehensive, executive-orientation program
and deliver essential management training to all executives.

As NSF’s employee satisfaction has declined, and its internal and external scrutiny has
increased, the impact of NSF’s lack of decision making on recommendations for
improving its work environment is becoming more serious. An effective process and
structure combined with strong leadership on the part of the champion for this change
would help NSF identify and implement those actions that should result in the most
effective improvements in its workforce management and work environment for
employees.

Conclusion and Recommendation
NSF is not implementing needed workforce change because: (1) it does not have an
effective process for responding to recommendations made by the groups it has tasked
with identifying workforce improvements, and (2) the individuals who should be leading
this change do not have the time to focus on this issue or the authority to act.

To ensure that needed decisions are made, NSF must institute an effective process and
structure to address workforce issues, similar to the process it used in bringing about
needed change in the audit resolution process at NSF.

Therefore, we recommend that the NSF Director:

    Develop and document policies and procedures and utilize a structured approach to


3
 In fall 2009, IPAs filled 20 of 75 of NSF’s executive-level science workforce positions as reported in NSF
OIG report 10-2-009.
                                                    9
   manage and implement workforce and workplace change. This approach should
   ensure that senior officials manage change by:
      • providing clear objectives and expectations,
      • establishing priorities, milestones, and timelines
      • authorizing individuals to act and holding those individuals accountable for
         that responsibility,
      • ensuring milestones and timelines are met,
      • communicating information and status to staff, and
      • periodically following-up and monitoring to ensure that the process is working
         effectively.


Summary of Agency Response and OIG Comments
NSF generally agreed with our recommendation and in its response, outlined steps it
has begun to take to address the issues surrounding its management of human capital.

In its response, NSF stated that while it is experimenting with how best to implement the
role of the CHCO, the CHCO will work with the Deputy Assistant Directors and
Executive Officers (DADEO) group to make human capital management decisions. We
are concerned that involving so many people in the decision making process will
impede, rather than enhance, the speed of change. NSF stated that, by August 1,
2011, it would make a decision on the effectiveness of using the DADEO group in
human capital management planning and decision making. To have a clear, objective
basis by which to judge the DADEO effort in August, NSF should articulate how it will
gauge the success or failure of this endeavor now, so that all involved will know what is
expected of them during this trial period.

We have included NSF's response to this report in its entirety as Appendix A.




                                           10
Appendix A: Agency’s Response


                                    NATIONAL SCIENCE FOUNDATION
                                           4201 WILSON BOU LEVARD
                                          ARLINGTON, VIRGINIA 22230


                                             March 4, 2011


          OFFICE OF THE
            DIRECTOR




    MEMORANDUM


    TO:             Dr, Allison Lerner
                    Inspector General

    FROM:           Dr. Subra Suresh
                    Director
                                         S~v"­
    SUBJECT:        Response to Official Draft of OIG's Audit of NSF's Actions to Improve
                    Workforce Management and the Work Environment for Employees



    Attached please find the Foundation's response to the recommendations contained in
    the Official Draft of OIG's Audit of NSF's Actions to Improve Workforce Management
    and the Work Environment for Employees. Please let me know if you have any
    questions.




    Attachment

    cc:     Brett Baker
            Dedric Carter
            Clifford Gabriel
            Cora Marrett
            Amy Northcutt
            Judith Sunley




                                                 11
  Aud it of NSF's Actions to Imp rove WorI<force Management and the
                   Work Environment for Employees

Thank you for the opportunity to re5pond to your Official Draft report Audit of NSF's Actions to Improve
Workforce Management and the Work Environment for Employen. The findings make dear that NSF
needs to modify its approach to managing change in the human capital arena by (1) investing the
leadership for human capit al managemen t with the responsib ility and ~uthority to act; (21 crea ting an
effec tive process for respond ing to recommendations for action; and (3) developing and documenting
policies and procedures demonstrating ~ structured ~pproach to managing and implementing workfo rce
and workplace change. This response outlines actions we have taken to address these issues.

Leadership for Human Capita!   Man~gement


There are two key issues aroun d leadership for hum~n capital management: (1) leadership for agentY-
w ide planning, decision making, and accountability; and (2) leadership for implementation w ithin the
directorates and major offices comprising the agency.

Agency·wide leadership responsibilities lie w ith the Chief Operating Orticer (COO), to whom the Chief
Human Capital Offi cer (CHCa) reports, consistent with the GPRA Modernization Act of 2010. In
October 2010, we initiated an experiment to explore how best to implement the role of the CHCO,
including exploring the most effective balance between focused time for CHCO responsibili ties and
other human capita l management re5pomibilit ies. An interim CHCO, reporting to the COO was
appointed. The Inte ri m CHCO is also serving as the Interim Division Dirfctor for Human Rfsource
Management (DD/HRM), reporting through the OffiCI! of Information and Resource Management
(OIRM).

    •   The COO and the Director w ill finalize the decision on the strllcture of the relationship between
        the CHCO and the OD/HRM in Augus t 2011, so that any needed recruitments can be completed
        in early FY 2012.

Based on our past experience and as recommended by OPM, leadership for decision making and
implementation mus t include NSF's 5enior management.

    •   Effective immediately, we will devote one meeting per month of the Senior Management
        Roundtable to topics of human capital management and their linkage to agency programmatic
        and operational planning.

The CHCO will be a~ked to participate in the Senior Management Roundtable l or the human capital
management topi(S and will provide input and guidance on the agenda for that meeting. The CHCO is
also a member of the Deputy Assistant Director (DAD ) alld E~ecu!ive Officer (EO) group, which currently
oversees implementation efforts in the directorates and offices. The COO, with the assistance of the
CHCO, will ensure that all Assistant Directors, Office Heads, DADs and EOs have elements in their
performance plans tha t address leading change in the human capital management arena.

Process for Human Capital Management Decisions

The ultimate responsibil ity for strategic decision making at NSF rests with the Director and Deputy
Director w ith the partkipa tion of the senior management and guidance and leadership from relevan t
NSF staff. While we cont inue our exploration of the CHCO role, implementation of human capital


                                                    1




                                                    12
    Audit of NSF's Actions to Improve Workforce Management and the
                    Work Envi ronment for Employees

m~n~gement recommend~tions        w ill be   f~cilit~ted   through the leadership of the CHCO, working with the
DAD and EO group.

•    The Interim CHCO will work wi th the DAD and EO group and HRM ~enior st~ff to develop a Human
     Capital Strategic Plan consistent with our new NSF Strategic Plan and meeting the requirements of
     OPM's Human Capital Assessment and Accountabilit y Framework (HCAAF). We expect completion
     of this draft for review and approval of the Director and Deputy Director by j uly 1, 2011.
•    In addition, the Director is charging the DAD and EO group to work with the Interim CHCO and HRM
     senior staff as the principal forum for systematically addressing human capital management issues,
     including the existing set of recom mendations, with appropria t e sets of timelines, milestones, and
     roles and responsibilities for implementation and accountability. The group is charged with
     providing plans for coherent sets of human capital management activities for review of the Senior
     Man~gement Roundtable for implemen tat ion as soon as possible before July 1, 2011.
•    Finally the Director is charging the DAD ~nd EO group to work with the Interim CHCO and HRM
     senior 5taff in developing NSF-wide human capital management programs fulfilling these plans and
     in implementing them effectively in the directorates and offices. Detailed timelines and
     responsibilities consistent with the plans will be in place by July 1, 2011.
•    By August 1, 2011, NSF will make a determination on the effectiveness of llsing the DAD and EO
     group in human capital management planning and decision making, either formalizing the role of
     the group in its organizational structure or providing an alternative approach.

Input to and implementation of human capital management decisions may require participation of,
and/or negotiation with, the union. This will be a consideration in the establishment of timelines and
roles and responsibilities.

Developing a Structured Approach

NSF has made progress in developing implementation plans for human capi tal decisions thaI contain
elements of the structured approach articulated in the DIG recommendatiOIl. The clearest example t o
date is the Hiring Reform Act ion Plan, which describes key deliverables or outputs, st art and end dates,
responsible parties, and resources needed. Another example is the Correct ive Action Plan developed in
response to the OIG Audit of NSF's Workforce Manogement: Rotating Director Model. NSF is curren tly
on trac k to complete all actions related to performance plans for IPAs by the planned co mpletion dates
and will mee t modified completion dates to integrate new execu tives, particularly IPAs, into the agency,
with ~II actions comple ted by June 201 1. NSF has taken another step n the direction of utilizing a
structured approach in its development of the FY 201 1 Performance Plan, which assigns responsibility
for ~ctions to specific individuals. Future activities w ill build on these examples.

NSF is committed to developing the broader planning, implementation. and evaluation framework that
will allow the agency to align with OPM's Human Capital Assessment and Accountability Framework.
The implementation plans w ithin th is framework will include determin~tion on acceptance or
modification of recommendations considered in this audit report, concrete steps to implement the
highest priority activities, and timelines for ini tiation of lower priorities. Implementation plans and
timel ines w ill i ncorporate Our best knowledge of fiscal and human resources available to NSF for these
purposes for the remainder of Fiscal Year 2011 and the next 2 to 3 yea rs with options for expanding or
contracting activities dependent on actual availability of resources.


                                                            2




                                                           13
    Au dit of NSF's Actions to Improve Workforce Management and the
                     Work Environment for Emp loyees

Communication and documentation of t he developing framework and implementation plans will be
critical elements of this structured approach.

     •   The Interim CHCO and Director of t he Office of legislative and Public Affa irs will develop an
         internal communica t ions plan, inclu ding monthly updates by the CHCO to the Office of the
         Direct or and periodic com munications to the staff on human capital lopics. This plan will be
         completed by May 1, 2011.
     •   The Interim CHCO w ill begin the p rocess of upda ti ng the Personnel Manual fo r the NSf w ith
         clearly articul ated policies and procedu res and preliminary tlmelines for specific pieces of the
         work by July 1, 2011.

With these actions in place, we look forward t o grea t ly improving our workfo rce managem ent and wor k
environment at NSF. However, it w ill be impor tan t to assess our progress on a cont inuing basis.

•        The Foundation will conduct a preliminary assessment of t he effectiveness of human capital
         managemenl under the currenl operatiol1al struclUre il1 August 2011, based 011 experiel1ce with
         the deliverables due be fore thel1. This assessmel1t will il1clude the role of the CHCO, the
         relati ol1shi p betweel1 the CHCO al1d the COO, and the organizational placement of the CHCO
         (e.g., OIRM, OIRM/HRM, or Office of the Director). Should they be necessary, the agency w ill
         make modifications to t he structure 3tthe beginning of FY 2012 .
•        NSF will continue with pe riodic assessments and needed adjustments to the operati onal
         st ructure, building them into the aPM HCAAF accountabili ty structure.




                                                      3




                                                      14
Appendix B: Objective, Scope, and Methodology

The objective of our audit was to determine what actions NSF has undertaken to
improve workforce management and the work environment for employees, and to
assess the effectiveness of NSF’s process for developing and implementing workforce
and workplace improvements.

We determined that the audit scope consisted of 102 recommendations. This includes:
  • 31 action items in NSF’s draft Employee Action Agenda (September 2009),
  • 6 recommendations in NSF’s Employee Satisfaction and Wellness working group
     report (September 2009),
  • 30 recommendations in NSF’s Human Resources Policies working group report
     (August 2010),
  • 2 recommendations from the Office of Inspector General’s (OIG) audit report of
     NSF’s rotating director model (March 2010),
  • 24 items in NSF’s Hiring Reform Action Plan (2010), and
  • 9 recommendations related to IPAs in executive positions in the Office of
     Personnel Management’s (OPM) Human Capital Management Evaluation of NSF
     (August 2010).

We conducted the performance audit from October 2010 to January 2011, at NSF in
Arlington, VA. To meet our objective, we completed the following tasks:
    • Reviewed NSF and other reports related to workforce management and
       employees’ work environment,
    • Reviewed related laws, regulations, and guidance,
    • Reviewed and analyzed prior audit reports and studies related to these issues,
    • Interviewed high-level, key players in NSF workforce management including the
       Acting Deputy Director, human resource officials, and working group leaders,
    • Determined and documented the status of each recommendation that we
       included in our audit scope, and
    • Defined and described an effective process for developing and implementing
       change.

Compliance with Laws and Regulations and Assessment of Applicable Internal
Controls

We reviewed NSF’s compliance with applicable provisions of pertinent laws and
guidance including:
   • A December 2009 Executive Order requiring that agencies establish a labor
      management forum to improve delivery of government services,
   • A May 2010 Presidential Memorandum and related OPM guidance for improving
      the Federal recruitment and hiring process that required NSF to establish a hiring
      reform SWAT team and to develop and implement an action plan for eliminating
      barriers to mandated hiring reform initiatives, and


                                          15
   •   OPM’s 2009 requirements for agencies to develop action plans on employee
       satisfaction and wellness initiatives to be included in the agencies’ FY 2011
       budget submissions to OMB.

We did not identify any instances of noncompliance with the portion of these laws and
guidance pertinent to our audit objectives.

We also obtained an understanding of the management controls over NSF’s process to
make improvements in its workforce management and employee work environment by
interviewing NSF officials and staff. We identified internal control deficiencies, which we
discuss in this report; however, we did not identify any instances of fraud, illegal acts,
violations, or abuse.

During the course of this audit, the auditors did not receive, and therefore did not rely
on, information and data from NSF in electronic format or that had been entered into a
computer system, or that resulted from computer processing. Therefore, we did not
test the reliability of NSF’s computer-processed data.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.




                                            16
